App. 1
NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE APPELLATE DIVISION
This opinion shall not “constitute precedent
or be binding upon any court.” Although it is
posted on the internet, this opinion is binding
only on the parties in the case and its
use in other cases is limited. R. 1:36-3.
SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO. A-5414-18T2
IN THE MATTER OF THE
APPLICATON OF CARRY
PERMIT FOR REB RUSSEL, II
Argued telephonically May 19, 2020 –
Decided June 25, 2020
Before Judges Fisher and Accurso.
On appeal from the Superior Court of
New Jersey, Law Division, Hunterdon County,
Docket No. GPHNT-19-001.
Jef Henninger argued the cause for appellant
Reb Russell, II.
Jeffrey L. Weinstein, Special Deputy Attorney
General/Acting Assistant Prosecutor, argued the
cause for respondent State of New Jersey (Michael
J. Williams, Acting Hunterdon County Prosecutor,
attorney; Jeffrey L. Weinstein, on the brief ).

App. 2
PER CURIAM
Reb Russell, II appeals from the trial court’s July
25, 2019 order denying his application for a carrypermit, ﬁnding he failed to establish justiﬁable need to
carry a handgun in New Jersey. See N.J.S.A. 2C:58-4.
Russell contends the court erred in that ﬁnding, that it
failed to consider “all the appropriate facts” he presented, should have accorded more deference to the Superintendent of State Police, that Russell’s failure to
have retained counsel to represent him at the hearing
conducted by the court hindered “his ability to properly
articulate his argument,” and that a remand is required in light of the Supreme Court’s recent opinion
in In re Carlstrom, 240 N.J. 563, 565 (2020), holding a
hearing must be held whenever the Law Division “contemplates denying a handgun carry-permit that has
been approved by the police chief or superintendent.”
We ﬁnd no merit in any of Russell’s arguments and afﬁrm, substantially for the reasons provided in Judge
Borkowski’s comprehensive opinion entered after a
hearing.
Russell holds a Ph.D. in the sciences and works in
the pharmaceutical industry. After his twenty-threeyear marriage ended in divorce in 2018, he started a
side business as a firearms instructor. When he applied to State Police for a carry-permit, he resided in
Doylestown, Pennsylvania, the same town in which his
ex-wife resides. Russell has held a concealed-carry permit in Pennsylvania for twenty years.

App. 3
Lieutenant Stephen Mazzagatti, acting on behalf
of the Superintendent, approved the application on
June 4, 2019. The approval noted that Russell “successfully completed a handgun qualiﬁcation course, with a
Glock 19, . . . under the direction of Instructor Reb Russell, II.” The approval also noted that Russell’s application was endorsed by three individuals all of whom
indicated they had known him for more than three
years and could attest to his reputable character and
behavior. See N.J.A.C. 13:54-2.4. The approval stated
that no information suggested Russell was subject to
any disability included in N.J.S.A. 2C:58-3(c), but did
not address his justiﬁable need to carry a handgun,
N.J.S.A. 2C:58-4(c). It did, however, state that in the
event Russell’s application was approved, “the restrictions should be that the applicant can only carry a
weapon in the performance of his duties during working hours,” and that it would be “null and void” if that
employment terminated.
Following approval by the State Police, Russell
submitted his application to the Superior Court on
June 17, 2019, see N.J.S.A. 2C:58-4(d), which was opposed by the Hunterdon County Prosecutor. In support
of the application, Russell submitted a two-page singlespaced letter detailing his background, education and
work history. The bulk of the letter was devoted to addressing his need for the permit.
Russell explained that he’d been the “victim of domestic abuse” for the entire length of his twenty-threeyear marriage, although he “never reported anything
due to the social stigma.” He claimed his ex-wife wife

App. 4
suffered from borderline personality disorder and refused treatment. Russell stated she had threatened
him, saying “there is a special place in hell for [him]
and she will personal[ly] ensure [he] get there quickly
and if [she] can’t have [him] no one will.” He claimed
he took her threats seriously, knowing “what she is
capable of from experience,” especially as he had
“move[d] on in a committed relationship,” which had
“further enraged” her.
Russell explained both his parents and the woman
he was seeing lived in New Jersey and that he spent
several days a week at the latter’s home. He contended
his ex-wife was “someone who scares [him] with her
rage, impulsive behaviors, lies, manipulation and abuse.”
He noted he had “the legal means” to protect his person
in Pennsylvania where he had “some sense of safety
and peace” and was requesting the same in New Jersey. Russell asserted he “shouldn’t have to live in fear
and should be free from the real and constant threat
[his] ex-wife is to [him].” He closed by saying “[t]he potential for danger is real” and the bias and shame that
had prevented him from previously coming forward
“are not.”
The court conducted a hearing on the application
on July 24, 2019. Judge Borkowski began the hearing
by explaining the carry-permit statute assigned the
decision of whether the permit should issue to the
court, notwithstanding input from the State Police “as
to whether or not a carry permit should be permitted
and whether or not the there is a justiﬁable reason for
that,” which is why the court was conducting a hearing.

App. 5
The prosecutor was permitted to question Russell and
began by asking whether they could talk about the letter Russell submitted to the court as to why he “should
have a carry permit” in New Jersey. Russell responded
“that it’s tough, but [he] realize[d] [he] ha[d] to.”
Russell explained his primary reason for seeking
the permit was his “abusive ex-wife.” He testiﬁed that
he stayed in his marriage “for the kids,” although his
wife was verbally abusive and “became physically abusive.” He explained that because he was “bigger than
she is” he “didn’t think about it much from that perspective” and explained it also was “an embarrassment.” He testiﬁed she would be happy at times and
“would apologize, . . . but they make you think – she
made me think it was my fault at times until ﬁnally it
was enough.” He claimed his ex-wife is “a good person,”
but “still really weaponizes the kids” and, as he “understand[s] it from working with people, she has an emotional dysregulation issue where she can just ﬂy into
rages.” He explained that he’d had a carry-permit in
Pennsylvania since 1999, and although he’d worked in
New Jersey for over a decade, it was only recently
when he began spending more time at his girlfriend’s,
seeing what his ex-wife was “capable of, and understanding what’s really going on” that he sought a
carry-permit here.
In response to the prosecutor’s questions as to
whether Russell’s ex-wife had ever followed him into
New Jersey or caused alarm to him here, Russell responded that he “can’t say [he’d] noticed that she’s followed [him], but [he] can’t say that she hasn’t.” He

App. 6
expressed the belief “that probably most of the time as
[he understood] this disorder she’s stable but when she
runs into rages and becomes impulsive . . . I mean the
risk is probably small, but it’s 100 percent lethal if it
happens.” Asked by the prosecutor whether he felt local law enforcement in New Jersey would be able to
protect him were his ex-wife to appear in New Jersey,
although he had not seen her here, Russell responded
that he didn’t feel they could “in most cases” because
“there’s a response time, right, to everything.”
The judge also engaged Russell at length. She
noted he had certiﬁed himself as to his proﬁciency with
a handgun and asked how the prosecutor might conﬁrm his ability to safely handle a ﬁrearm in that circumstance. When Russell explained he could certify
himself because the National Riﬂe Association had certiﬁed him as an instructor, the judge noted he had not
submitted those documents to the court. Russell had a
photo of his certiﬁcation on his phone, which the court
reviewed and read into the record.
Turning to justifiable need, the judge asked whether
Russell had ever sought a restraining order against his
ex-wife or the assistance of the police. When Russell
said he had done neither, instead choosing to stay away
from her and mentioned she had their children call
him because he wouldn’t speak to her, the court inquired as to whether his ex-wife had been awarded
custody of their children. Russell explained they had
joint custody, which he had not opposed. When the
judge asked whether he felt comfortable with the children being in his ex-wife’s custody given what he had

App. 7
testiﬁed to about her, he replied that he did not feel
comfortable. He noted, however, that the children were
“older now” and he had been advised by counsel there
was little to do in such cases, “I don’t have the evidence,
ma’am.”
When the judge asked whether his ex-wife had
ever attacked him, Russell responded that she had not
attacked him since they separated over two years before, but that she knew in Pennsylvania “that would be
a bad thing – but she also knows in New Jersey, you
know, based on my history that I wouldn’t have the
same capabilities.” Asked what he meant, Russell responded that his ex-wife knew he “had a concealed
carry in Pennsylvania, but [he’d] never had one in New
Jersey.”
When the judge pointed out that Russell could
seek a restraining order that would protect him if
threatened by his ex-wife, he responded saying, “yeah,
you can put that in place I’m assuming, but that
doesn’t stop people.” In response to the court’s question
as to the last time his ex-wife had threatened him, Russell responded that “it’s probably about a year ago.”
When he expressed that he just did not “feel comfortable with her, ma’am, especially given [her] condition,”
the judge noted his ex-wife would be held in contempt
if she violated the restraining order and asked whether
that wouldn’t “be a different way to deal with it rather
than obtaining a carry permit.” Russell replied that the
judge’s question “assumes that that wouldn’t be a terminal effect at that point . . . I mean you can violate a
restraining order . . . and it’s ﬁne if the outcome isn’t

App. 8
extreme.” Russell admitted, however, that his wife had
never approached him with a weapon, and he did not
know whether she possessed one.
Asked by the court whether he was asserting justiﬁable need on any ground other than personal protection, Russell replied it would be easier with his
ﬁrearm instruction business. If he had a carry-permit
he would not be limited to transporting a gun to a ﬁring range from his home, but could carry the weapon
to work, for example, and meet a student at the range
after work, without having to return home ﬁrst to retrieve his weapon. He testiﬁed, however, that while it
would make things easier for him, that was not why he
was seeking the permit. The court also inquired as to
the recommendation by State Police that the permit be
restricted so as to only allow Russell to carry a handgun “in the performance of his duties during working
hours,” when his application reﬂected he only traveled
to New Jersey to visit his parents or his girlfriend and
not for work. The prosecutor offered that the restriction was not speciﬁc to Russell but something he
believed the State Police “put . . . in every application.”
Judge Borkowski issued a written opinion denying
the application the day after the hearing. In a comprehensive opinion discussing the law governing the
issuance of carry-permits and making clear factual
findings based on Russell’s application and the evidence and arguments adduced at the hearing, the
judge found Russell was a person of good character and
not subject to any of the disabilities in N.J.S.A. 2C:583(c). And although noting that “common sense dictates

App. 9
that applicants should not certify themselves” as to
their familiarity with the safe handling and use of
handguns required by N.J.S.A. 2C:58-4(d) and N.J.A.C.
13:54-2.4(b), the court found Russell’s testimony as to
his qualiﬁcations credible and the documentation he
submitted at the hearing authentic. The court accordingly found Russell was also “thoroughly familiar with
the safe handling and use of handguns,” satisfying the
requirements of N.J.S.A. 2C:58-4(d).
Although noting that Russell’s application had
been approved by the Division of State Police, thus implying a required ﬁnding of justiﬁable need pursuant
to N.J.S.A. 2C:58-4(c), Judge Borkowski found an “express determination of justiﬁable need” was “noticeably absent” from the Division’s investigation report
and approval. Based on her own review of Russell’s
application and his testimony at the hearing, Judge
Borkowski concluded Russell had “not provided the
speciﬁc detail necessary to conclude that there is an
urgent necessity” for self-protection as required by statute, and that Russell’s “generalized fear” of his ex-wife
could not support issuance of a carry-permit under In
re Preis, 118 N.J. 564, 571 (1990).
Speciﬁcally, the court noted Russell provided only
a few generalized verbal threats from his ex-wife, the
most recent occurring a year ago. He could not say that
she had followed him since their divorce or ever threatened him with a weapon. Indeed, he was not aware of
whether she even possessed one. And although he contends his ex-wife suffers from bi-polar disorder, he offered no documentation of that or any certiﬁcation or

App. 10
testimony from a qualiﬁed and unbiased third-party to
substantiate she suffers from that illness or legitimize
the fear Russell expressed. The judge noted defendant’s testimony that he had never sought the assistance of the police or attempted to obtain a restraining
order against his ex-wife, or taken other reasonable
means of protecting himself before seeking a carry permit.
The court concluded Russell’s
own actions contradict his fear of his wife.
Although recognizing a victim of domestic violence may hesitate to report abuse because of
the stigma attached, prior to resorting to carrying a weapon for protection, the applicant
never reported any past or, more pertinent to
this action, any present abusive conduct, has
never requested a temporary or ﬁnal restraining order, has chosen to reside and operate
his business in the same town where his exwife lives although he testiﬁed that he rarely
spends time there, did not contest his ex-wife
having joint custody of his children. Moreover,
the applicant characterized his ex-wife’s disorder and behavior as being stable most of the
time. He also testiﬁed that he was advised
when she throws rages and acts on impulses
it can result in lethal consequences, however
he asserted that the “risk [of lethal consequences] is probably small.” The last verbal
threat was approximately one year ago. The
code requires the applicant to demonstrate
a “special danger to the applicant’s life that
cannot be avoided by reasonable means other

App. 11
than by issuance of a permit to carry a handgun.” The applicant has not satisﬁed that burden. Therefore, the court does not ﬁnd the
applicant’s described fear of his ex-wife provides a justiﬁable need to carry a ﬁrearm in
this state as he has not demonstrated an urgent threat exists.
As to Russell’s side business as a ﬁrearms instructor, the court found no evidence to support his need for
a carry-permit in connection with that endeavor. The
judge noted Russell did not need a carry-permit to lawfully transport a ﬁrearm from his residence in either
Pennsylvania or New Jersey directly to any range in
New Jersey. Although Russell testiﬁed he maintained
an ofﬁce in Ewing, that ofﬁce was for Russell’s pharmaceutical work, not his ﬁrearms instruction. Based
on Russell’s testimony, the judge concluded it would be
convenient for Russell to travel directly from work to
the range, but his convenience could not support a justiﬁable need for a carry-permit in connection with his
self-employment as a ﬁrearms instructor.
The court summarized her denial of Russell’s application as follows:
The court denies the applicant’s request
for a permit to carry because of a lack of speciﬁc detail provided in his application and testimony of justiﬁable need, the generalized
nature of the threats, the lack of immediacy or
urgency of any threats, and the lack of supporting documents. Although the applicant
has demonstrated that he is of good character,
suffers from no impediments to owning or

App. 12
carrying a firearm and is knowledgeable about
the safe and proper use of a ﬁrearm, the court
ﬁnds that he has not shown he has a justiﬁable need to carry a ﬁrearm. In essence the applicant failed to establish that he will be
subjected to a substantial threat of serious
bodily harm and carrying a handgun is necessary to reduce the threat of unjustiﬁable serious bodily injury.
“The permit to carry a gun is the most closely-regulated aspect” of the “careful grid” of New Jersey’s guncontrol laws. Preis, 118 N.J. 564, 568 (quoting State v.
Ingram, 98 N.J. 489, 495 n. 1 (1985)). Under the rule
established by our Supreme Court in Siccardi v. State,
59 N.J. 545, 557 (1971), and reafﬁrmed in Preis, an applicant must “establish an urgent necessity for carrying guns for self-protection” under the statute. “The
requirement is of speciﬁc threats or previous attacks
demonstrating a special danger to the applicant’s life
that cannot be avoided by other means.” Preis, 118 N.J.
at 571. The law is well settled that “[g]eneralized fears
for personal safety are inadequate” to establish the
need for a carry-permit in this State. Ibid.; In re
Wheeler, 433 N.J. Super. 560, 614 (App. Div. 2013). In
reviewing a trial court’s decision to grant or deny the
permit, we are bound to accept those factual ﬁndings
with substantial credible support in the record. In re
Return of Weapons to J.W.D., 149 N.J. 108, 116-17
(1997). Our review of the trial court’s legal conclusions,
of course, is plenary. Id. at 117.

App. 13
Applying those standards here, we ﬁnd no basis to
question Judge Borkowski’s conclusion that Russell
failed to establish justiﬁable need for a carry-permit.
She was obviously correct that no deference was due
Lieutenant Mazzagatti’s approval of the application on
behalf of the superintendent in the absence of any
express ﬁnding by the lieutenant that Russell had established justiﬁable need in accordance with N.J.S.A.
2C:48-4(c) and N.J.A.C. 13:542.4(d)(1). Moreover, the
statute regulating issuance of a carry-permit makes
clear that although the superintendent may approve
an application, only a Superior Court judge may issue
the permit, making the judge’s exercise of her independent judgment critical. See In re Pantano, 429 N.J.
Super. 478, 485-86 (App. Div. 2013).
Contrary to Russell’s arguments on appeal, a review of the hearing transcript and Judge Borkowski’s
careful ﬁndings makes clear the judge considered all
the facts he put forth in support of his application. Although we cannot say whether Russell’s choice to not
retain counsel “hindered his ability to properly articulate his argument,” counsel has not suggested what
that argument might be in light of the facts Russell
presented in support of his application.
Finally, we reject the argument that the Court’s
recent decision in Carlstrom requires a remand here.
Russell was afforded a prompt hearing on his application for a carry-permit. See Carlstrom, 240 N.J. at 572.
And, as his response to the prosecutor’s initial questions at that hearing makes clear, he knew and was
prepared to address the critical issue of whether the

App. 14
condition and behavior of his ex-wife was sufﬁcient to
establish his need for a carry-permit in New Jersey.
See ibid. Judge Borkowski afforded him the opportunity to present his reasons as to why he satisﬁed the
statutory standard, and he responded to her questions
at length. Ibid. Further, Judge Borkowski permitted
Russell to submit pertinent documents stored on his
phone in the course of the hearing, which she relied on
in ﬁnding he satisﬁed the requirements of N.J.S.A.
2C:58-4(d). See Carlstrom, 240 N.J. at 572-73. Finally,
she sent Russell a detailed statement of reasons for her
denial of the permit the day after the hearing. See id.
at 572. Russell was provided the full and fair hearing
contemplated by the Court in Carlstrom as required by
Administrative Directive #06-19. Nothing more was
required.
Because Judge Borkowski’s conclusion that Russell did not establish justiﬁable need for a carry-permit
is in accord with well-settled law, and Russell has provided us no basis to reverse that conclusion, we afﬁrm,
substantially for the reasons expressed by Judge
Borkowski in her thorough and thoughtful statement
of reasons of July 25, 2019.
Afﬁrmed.

App. 15
NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE COMMITTEE ON OPINIONS
PREPARED BY THE COURT
Hon. Angela F. Borkowski, J.S.C.
:
SUPERIOR COURT
: OF NEW JERSEY LAW
: DIVISION: CRIMINAL PART
In Re: Carry Permit : HUNTERDON COUNTY
:
for Reb Russell, II
STATEMENT OF
:
REASONS
FOR DENIAL
:
:
(Filed Jul. 25, 2019)
On March 29, 2019, R.R. ﬁled an Application for
Permit to Carry a Handgun with the New Jersey State
Police. Lieutenant Stephen Mazzagatti acting on behalf of the Superintendent of the New Jersey State Police approved the application on June 4, 2019. The
application was submitted to the Superior Court of
New Jersey, Hunterdon County, Criminal Division, for
ﬁnal approval. This court after reviewing the application and supporting materials and holding a hearing
on July 24, 2019 does not ﬁnd that R.R. has a justiﬁable need to have a permit to carry in the State of New
Jersey; therefore, his application is denied.
LEGAL STANDARD
N.J.S.A. § 2C:58-4 governs the granting of a permit to carry a handgun, and states: “[n]o application
shall be approved by the chief police ofﬁcer or the

App. 16
superintendent unless the applicant demonstrates
that he is not subject to any of the disabilities set forth
in 2C:58-3c., that he is thoroughly familiar with the
safe handling and use of handguns, and that he has a
justiﬁable need to carry a handgun.” N.J.S.A. § 2C:584(c). Although the application is ﬁrst submitted to the
chief police ofﬁcer in a municipality or the superintendent of the state police for approval, only the court may
issue the permit. In re Pantano, 429 N.J. Super. 478,
485, (App.Div. 2013), certif. dismissed as improvidently
granted, 2014 N.J. Lexis 904, (2014). If an appeal is
ﬁled or the application is approved by the chief police
ofﬁcer or superintendent, the Court must conduct its
own evaluation and be satisﬁed that the applicant is:
1.

a person of good character

2.

not subject to any of the disabilities set
forth in section N.J.S.A. 2C:58-3c,

3.

thoroughly familiar with the safe handling and use of handguns

4.

has a justiﬁable-need to carry a handgun

IN.J.S.A. 2C:58-4(d)]
(d) Each application form shall also be accompanied by a written certiﬁcation of justiﬁable need to carry a handgun, which shall be
under oath and which:
1. In the case of a private citizen
shall specify in detail the urgent necessity for self-protection, as evidenced
by serious threats, speciﬁc threats, or

App. 17
previous attacks, which demonstrate
a special danger to the applicant’s
life that cannot be avoided by reasonable means other than by issuance of
a permit to carry a handgun. Where
possible the applicant shall corroborate the existence of any speciﬁc
threats or previous attacks by reference to reports of such incidents to the
appropriate law enforcement agencies; or
N.J.A.C. 13:54-2.4(d)(1)
The determination of the applicant’s “justiﬁable
need” to carry a handgun is made on a case-by-case basis. In re Preis, 118 N.J. 564, 576 (1990). The Supreme
Court has referred to New Jersey’s gun-control laws as
a “careful grid” of regulatory provisions. State v. Ingram, 98 N.J. 489, 495 (1985). New Jersey laws “draw
careful lines between permission to possess a gun in
one’s home or place of business, N.J.S.A. 2C:39-6e, and
permission to carry a gun, N.J.S.A. 2C:39-6a and N.J.S.A.
2C:39-6c.” Id. at 568-569. The permit to carry a gun is
the most closely-regulated aspect of gun-control laws.
Id.
Very few persons are exempt from the criminal
provisions for carrying a gun without a permit. Id.1.
1

Members of the armed forces of the United States or National Guard, federal-law-enforcement ofﬁcers, State Police, sheriff ’s ofﬁcers, correction ofﬁcers, or regular members of municipal
and county police forces have authority to carry guns both on
and off duty. N.J.S.A. 2C:39-6a. Other designated occupations,
such as bank guards, railway policemen, park rangers, and

App. 18
Private-security ofﬁcers, not being exempt from our
gun-control laws, must obtain a license to carry a gun.
Id. Only employees of armored-car companies are singled out for special treatment. See N.J.S.A. 2C:58-4.1.
“So concerned is the Legislature about this licensing
process that it allows only a Superior Court judge to
issue a permit, after applicants ﬁrst obtain approval
from their local chief of police or superintendent. Id.
“The New Jersey Legislature has long been aware of
the dangers inherent in the carrying of handguns and
the urgent necessity of their regulation . . . ” Siccardi v.
State, 59 N.J. 545, 553 (1971). Moreover, absolute deference is not extended to the police chiefs decision to
approve the permit. In re Pantano, 429 NJ. Super. 478,
484 (App.Div. 2013)
The Siccardi court has acknowledged “a strict policy which wisely conﬁnes the issuance of carrying permits to persons speciﬁcally employed in security work
and to such other limited personnel who can establish
an urgent necessity for carrying guns for self-protection.” Siccardi, 59 N.J. at 553. An applicant whose life
is in real danger, as evidenced by serious threats or
earlier attacks, may perhaps qualify for a permit to
carry. Id. at 557. Generalized fears for personal safety
are inadequate as a basis for a permit. Preis, 118 N.J.
at 573.

campus-police officers, are exempt from the gun-control act’s
criminal provisions “while in the actual performance of [such] duties.” N.J.S.A. 2C:39-6c

App. 19
FACTUAL FINDINGS AND LEGAL ANALYSIS
The court makes the following ﬁndings of fact and
conclusions of law. Preliminarily, the court ﬁnds, and
the state does not object, that the applicant is a person
of good character and is not subject to any of the disabilities set forth in section N.J.S.A. 2C:58-3c. See
N.J.S.A. 2C:58-4(d). The court notes that the applicant
has certified himself on the firearms he requests to carry.
Although N.J.A.C. 13:54-2.4(b) and N.J.S.A. 2C:58-4d are
silent on whether someone other than the applicant
must certify that the applicant is “thoroughly familiar
with the safe handling and use of handguns,” common
sense dictates that applicants should not certify themselves. However, the applicant provided sworn testimony under oath and provided documentation to the
court that he is certiﬁed by the National Riﬂe Association and designated as an instructor that is authorized
to teach the basic pistol course. He is also certiﬁed as
a range safety ofﬁcer, authorizing him to run ﬁring
ranges. Additionally he testiﬁed that he has had a concealed carry permit in Pennsylvania since 1999. The
court ﬁnds the testimony of the applicant to be credible
and ﬁnds the documentation provided at the hearing
to be authentic; same was not objected to by the state.
Therefore, after review of this documentation and the
sworn testimony of the applicant the court is satisﬁed
that the applicant is “thoroughly familiar with the safe
handling and use of handguns.” Id.
This application comes before the court having
been approved by Lieutenant Stephen Mazzagatti acting on behalf of the Superintendent of the New Jersey

App. 20
State Police. Pursuant to N.J.S.A. 2C:58-4c. “no application shall be approved by the . . . superintendent unless the applicant demonstrates that . . . he has a
justiﬁable need to carry a handgun.” The court ﬁnds
that the applicant has not provided the speciﬁc detail
necessary to conclude that there is an urgent necessity
as required by statute or code. N.J.A.C. 13:54-2.4(d)(1).
Although, the court does consider the endorsement of
the superintendent, the court would be derelict in its
duty if it did not make its own independent ﬁnding.
Despite the superintendent’s endorsement, it is the
court that has the ﬁnal determination of granting a
permit to carry.
Although a justiﬁable need determination is required by statute the application and investigation report prepared by the superintendent is noticeably
absent of any express determination of justifiable need.
The only mention of justiﬁable need is the remark in
the investigation report that “an attached letter from
the applicant explains why he thinks he needs to possess a carry permit in the state of New Jersey.” The
State Police investigation report concludes “in the
event the applicant’s permit to carry a ﬁrearm in the
state of New Jersey is approved. The restrictions
should be that the applicant can only carry a weapon
in the performance of his duties during working hours.
In the event the applicant terminates his employment,
this permit will be null and void and must immediately
be returned to the superintendent of the New Jersey
State Police.” The applicant certiﬁed that he is both a
self-employed ﬁrearms instructor and a scientist at

App. 21
Jazz Pharma in Philadelphia. Although the investigation report from the superintendent recommends a restriction on the applicant’s permit that he only be
allowed to carry during work hours, the applicant testiﬁed that his primary need for a carry permit is to protect himself from his ex-wife and his secondary need is
regarding his self-employment as a ﬁrearms instructor
for convenience. However, the court does not ﬁnd that
applicant’s generalized fear supports granting the applicant’s permit to carry. Preis, 118 N.J. at 573. Nor
does the applicant’s self-employment as a ﬁrearms instructor as explained by the applicant support a justiﬁable need to grant a carry permit.
The applicant attached to the application a notarized certiﬁcation alleging his justiﬁable need to carry
a ﬁrearm. In sum, the applicant asserted that after his
divorce he started a business as a certiﬁed range safety
ofﬁcer and certiﬁed pistol instructor teaching safety responsibility, and judgement. The applicant outlined
the abusive relationship that he was in for 23 years.
The applicant asserted that his ex-wife is “someone
who scares [him] with her rage, impulsive behaviors,
lies, manipulation, and abuse.” The applicant claimed
that his ex-wife suffers from untreated borderline personality disorder (BPD) and that she is prone to impulsive violent behavior due to this mental illness.
Applicant certiﬁed that he has moved on to a committed relationship which has further enraged his ex-wife.
He claimed that he has been threatened by his ex-wife,
speciﬁcally she has told him “there is a special place in
hell for [him] and she will personally ensure [he] get

App. 22
there quickly and if [she] can’t have [him] no one will,”
however during the hearing the applicant asserted
that the last time he was threatened by his ex-wife was
a year ago. The applicant stated that he is under a constant threat as long as she remains untreated. The applicant claimed that he spends up to a week or two at
a time in New Jersey and that he frequents Brook
Lawn and Basking Ridge, New Jersey where his girlfriend and parents reside. However at the hearing, the
applicant testiﬁed that now he only resides at his residence in Doylestown three or four times a month and
that he spends the majority of his time, “95%” in New
Jersey with his new partner. Applicant requests that
the court grant his permit to carry to protect himself
while in New Jersey, a right that he already has in
Pennsylvania.
The applicant has provided a few generalized
threats that occurred over the course of multiple years.
The applicant provided very little background information about his ex-wife, and did not provide the exact
dates or circumstances of the alleged threats. He testiﬁed, however, that he had been separated from his exwife since March 2017 and that the divorce was ﬁnalized in December of 2018. He testiﬁed that they currently share joint custody of their children; he having
agreed to the arrangement. He stated he was last verbally threatened by her one year ago and that he does
not know if his ex-wife is in possession of a weapon; she
has never approached him with a weapon. He did not
testify to details regarding any speciﬁc instances of
abuse, having documented only one. The applicant

App. 23
does not provide any evidence of restraining orders
sought against his ex-wife or police reports or convictions against his ex-wife or other documentation evidencing that he has sought reasonable means other
than the issuance of a permit to carry a handgun. He
testiﬁed that he has not noticed his ex-wife following
him but could not conﬁrm that she has not followed
him or stalked him in the past. Moreover he testiﬁed
that he refuses to give his mailing address to his exwife, refuses to communicate with her over the phone,
and only communicates with her over email currently.
There is no evidence that the ex-wife is aware of where
the applicant resides in Doylestown or in Basking
Ridge. The applicant testiﬁed that his wife currently
resides in their former marital home in Doylestown,
PA with one or more of his children and at times have
used them “as weapons” against him. There is no speciﬁc documentation or evidence to support that the exwife has ever made contact with the applicant in New
Jersey since their divorce in 2018. Moreover, although
the applicant asserted that the ex-wife suffers from
BPD, there is no documentation to support that she
suffers from this mental illness, and there is no certiﬁcation or testimony from an unbiased third party that
substantiates this illness or legitimizes the fears alleged by the applicant. The court would have at least
assumed that this would be mentioned in evaluations
or other documents of the divorce when children were
involved. There is simply no corroborating evidence to
support that the need for protection is urgent. See In
re Pantano, 429 N.J. Super. at 483 (Upholding the trial
court’s ﬁnding that an incident that occurred over 4

App. 24
years ago was insufﬁcient to establish a justiﬁable
need to carry a handgun.).
The defendant’s own actions contradict his fear
of his wife. Although recognizing a victim of domestic
violence may hesitate to report abuse because of
the stigma attached, prior to resorting to carrying a
weapon for protection, the applicant never reported
any past or, more pertinent to this action, any present
abusive conduct, has never requested a temporary or
ﬁnal restraining order, has chosen to reside and operate his business in the same town where his ex-wife
lives although he testiﬁed that he rarely spends time
there, did not contest his ex-wife having joint custody
of his children. Moreover, the applicant characterized
his ex-wife’s disorder and behavior as being stable
most of the time. He also testiﬁed that he was advised
when she throws rages and acts on impulses it can result in lethal consequences, however he asserted that
the “risk [of lethal consequences] is probably small.”
The last verbal threat was approximately one year
ago. The code requires the applicant to demonstrate a
“special danger to the applicant’s life that cannot be
avoided by reasonable means other than by issuance of
a permit to carry a handgun”. The applicant has not
satisﬁed that burden. Therefore, the court does not ﬁnd
the applicant’s described fear of his ex-wife provides a
justiﬁable need to carry a ﬁrearm in this state as he
has not demonstrated an urgent threat exists.
Regarding applicant’s self-employment as a ﬁrearms instructor, there is no evidence or certiﬁcation
that supports the applicant has ever been involved in

App. 25
any business in New Jersey that justiﬁes he carry a
ﬁrearm. He testiﬁed that he has trained people in New
Jersey on at least one occasion and that he has a ﬁrearms identiﬁcation permit in New Jersey, but that he
does not have a hand gun purchase permit because he
is not a resident. He also testiﬁed that he is currently
permitted under New Jersey law to transport weapons
from his residence in Pennsylvania to a range in New
Jersey, however he is only authorized to travel to and
from with no deviations in travel. Pursuant to N.J.S.A.
2C:58-3.2, 2C:39-6f.(3), and 2C:39-9i.(3) the court ﬁnds
that applicant is lawfully permitted to transport ﬁrearms directly from his place of residence in Pennsylvania to any range in New Jersey for the purposes of his
job as a ﬁrearms instructor. However, a handgun carry
permit is not required or necessary for applicant to
transport weapons in the state of New Jersey to and
from the range. The applicant testiﬁed that he has two
ofﬁces in which he works out of in Ewing, NJ and in
Philadelphia, PA. However those ofﬁces are for his job
as a scientist and not as a ﬁrearms instructor. The
court ﬁnds that there is no justiﬁable need for applicant to conceal carry a handgun to Ewing, NJ. Based
on his testimony, it would merely be a convenience to
the applicant for him to travel directly from work to
the range. However this is not a justiﬁable need.
Therefore, the courts ﬁnds that the applicant’s selfemployment as a ﬁrearm instructor does not establish
a justiﬁable need to carry in this state.
The court denies the applicant’s request for a permit to carry because of a lack of speciﬁc detail provided

App. 26
in his application and testimony of justiﬁable need,
the generalized nature of the threats, the lack of
immediacy or urgency of any threats, and the lack of
supporting documents. Although the applicant has
demonstrated that he is of good character, suffers from
no impediments to owning or carrying a ﬁrearm and is
knowledgeable about the safe and proper use of a ﬁrearm, the court ﬁnds that he has not shown he has a
justiﬁable need to carry a ﬁrearm. In essence the applicant failed to establish that he will be subjected to a
substantial threat of serious bodily harm and carrying
a handgun is necessary to reduce the threat of unjustiﬁable serious bodily injury.
CONCLUSION
For the reasons stated herein, the applicant’s Application for Permit to Carry a Handgun is DENIED.
The applicant has a right to appeal this decision pursuant to N.J.S.A. 2C:58-4(d).

App. 27
FILED, Clerk of the Supreme Court, 06 Nov 2020, 084796
SUPREME COURT
OF NEW JERSEY
C-200 September Term 2020
084796
In the Matter of the
Application of Carry
Permit for Reb Russell, II.

ORDER

(Reb Russell, II – Petitioner)
A petition for certiﬁcation of the judgment in A005414-18 having been submitted to this Court, and
the Court having considered the same;
It is ORDERED that the petition for certiﬁcation
is denied, with costs.
WITNESS, the Honorable Stuart Rabner, Chief
Justice, at Trenton, this 2nd day of November, 2020.
/s/ Heather Bates
CLERK OF THE
SUPREME COURT

